 

rchambers@mrblaw.com

 

 

 

March 5, 2021

VIA PRIORITY MAIL AND ELECTRONIC FILING

Honorable Scott 8. Harris, Clerk
Supreme Court of the United States
One First Street, NE

Washington, D.C. 20543

RE: King v. Pridmore, No. 20-877
Request to Delay Distribution of Petition

Dear Mr. Harris:

I represent Petitioner Trinell King in the above-captioned case. Pursuant to the Court’s
order of March 19, 2020, addressing the ongoing public health concerns relating to COVID-19, I
request a 7-day delay of the distribution of the petition for a writ of certiorari in this case. The brief
in opposition was filed on March 3, 2021, and the petition is currently scheduled to be distributed
on March 22, 2021. A 7-day delay would cause the petition being scheduled for distribution on
March 29, 2021. This additional time is warranted because we anticipate that COVID-19 will lead
to logistical challenges in printing the reply and delivering it to the Court. Counsel for respondent

has no objection to this request.
“Blonde. Uramlber

Rhonda Chambers

ce: EdR. Haden, Esq.

800 Shades Creek Parkway, Suite 600-D, Birmingham, Alabama 35209 | 205-879-1981 | www.mrblaw.com
